                                              OFFICE OF JOB CORPS


Office of Inspector General—Office of Audit




                                              COMPLAINT INVOLVING DYNAMIC EDUCATIONAL
                                                            SYSTEMS, INC.




                                                                    Date Issued: January 18, 2007
                                                                    Report Number: 21-07-001-01-370
U.S. Department of Labor                               January 2007
Office of Inspector General                            Allegations Involving Dynamic Educational
Office of Audit                                        Systems, Inc.

                                                       WHAT OIG FOUND
BRIEFLY…                                               Our audit found that allegations 1, 2 and 5 were not
Highlights of Report Number: 21-07-001-01-370, to      valid. We could not make a conclusion on
the National Director of Job Corps                     allegations 3 or 4.

                                                       While our audit results did not substantiate the
WHY READ THE REPORT                                    allegation that DESI had allowed students with
The Office of Inspector General received a             criminal records into Job Corps by intentionally
complaint alleging misconduct by Dynamic               contacting courts in the “wrong” jurisdiction (court
Educational Systems, Inc. (DESI) in the performance    shopping), we did find that DESI did not always
of its responsibilities under Job Corps Contract No.   contact all courts in the jurisdiction covering an
AE98301000. The contract called for DESI to            applicant’s residence. In 25 of our 160 sample case
provide outreach, admissions and career                files, DESI had contacted the appropriate Utah
development services in the States of Utah and         District Courts, but had not contacted any Justice
Montana. The complaint alleged that DESI:              Courts. District Courts in Utah try the more serious
                                                       cases, including all criminal felonies, while Justice
    1. allowed students with criminal records into     Courts deal primarily with misdemeanors.
       Job Corps by going “court shopping”
                                                       Job Corps’ Policy Requirements Handbook (PRH)
    2. allowed students into Job Corps with invalid    requires court contacts in every jurisdiction where
       Social Security numbers                         the applicant has lived for 3 years prior to applying
                                                       to Job Corps, but it does not specifically require
    3. allowed students into Job Corps whose           contacts of “every court” in every jurisdiction.
       parents’ incomes exceeded the income            However, a long record of misdemeanors is an
       threshold for eligibility                       important factor for admissions counselors to
                                                       consider when assessing applicants’ ability to
    4. advised students to lie about their health      participate successfully in Job Corps. To obtain
       conditions                                      information on such misdemeanor offenses,
                                                       admissions counselors would need to contact Utah’s
    5. ensured that student folders that would be      Justice Courts.
       reviewed by Job Corps officials contained
       correct information while folders not on the
       audit list contained more than 75 percent
       incorrect information                           WHAT OIG RECOMMENDED
                                                       We recommend that the National Director of Job
                                                       Corps issue additional policy guidance to clarify
WHY OIG DID THE AUDIT                                  the PRH requirement for contacting courts to
                                                       determine whether applicants have a history of
The purpose of our audit was to determine the
                                                       criminal behavior that needs to be considered when
validity of the five allegations made in the hotline
                                                       assessing applicants’ ability to participate
complaint.
                                                       successfully in Job Corps.
READ THE FULL REPORT                                   In response to the draft report, the National Director
To view the report, including the scope,               of Job Corps stated that Job Corps will review the
methodology, and full agency response, go to:          documentation and process for conducting
                                                       background checks and will issue new PRH policy
http://www.oig.dol.gov/public/reports/oa/2007/21-07-   that offers additional guidance to admissions
001-01-370                                             counselors.
                                                    Allegations Concerning Dynamic Educational Systems, Inc.




Table of Contents
                                                                                                                          PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7
The Allegation That DESI Allowed Students with Criminal Records into
the Job Corps Program by Going Court Shopping (Going to a Court Not
in the Applicant’s Jurisdiction to Obtain Background Information) Was
Not Valid......................................................................................................................... 8

The Allegation That DESI Allowed Students into the Job Corps' Program
with Social Security Numbers Which State "Not Valid for Employment" or
"Not Valid for Employment Without INS Authorization" Was Not Valid ................. 12

We Could Not Conclude Whether DESI Management Officials Instructed
Admissions Counselors to Allow Students Whose Parents Did Not Meet
the Eligibility Criteria (Because Their Incomes Exceeded the Income
Threshold) to Falsify Where They Lived and Use the Grandparents' Income
While in the Meantime They Were Living at Home ................................................... 13

We Could Not Conclude Whether DESI Management Officials Instructed
Admissions Counselors to Advise Students to Lie About Their Health
Conditions ................................................................................................................... 14

The Allegation That DESI Management Officials Maintained a List of the
Last Two Digits of Social Security Numbers Which Were Audited by the
Department of Labor (Job Corps) and Ensured That These Folders Had
Correct Information Because DESI Knew That Only These Folders Would
Be Reviewed by Job Corps, While Folders Not on the Audit List Had More
than 75 Percent Incorrect Information, Was Not Valid............................................. 15

APPENDICES ............................................................................................................... 17
A. Background............................................................................................................. 19

B. Objectives, Scope, Methodology, and Criteria..................................................... 21

C. Acronyms and Abbreviations ................................................................................ 25

D. Agency Response................................................................................................... 27



U.S. Department of Labor—Office of Inspector General                                                                              1
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.




Executive Summary
We completed an audit of five allegations concerning the performance of Dynamic
Educational Systems, Inc. (DESI) under Job Corps Contract No. AE98301000. The
contract called for DESI to provide outreach, admissions and career development
services in the States of Utah and Montana. Our audit was conducted in response to a
hotline complaint alleging noncompliance with the requirements of Job Corps’ Policy
and Requirements Handbook (PRH).

Our audit objectives were to determine the validity of the five allegations contained in
the hotline complaint. We limited our audit to students recruited by DESI for the
Clearfield Job Corps Center, Clearfield, Utah, the largest of the five Job Corps centers
included in DESI’s Utah/Montana contract and the center receiving the largest
percentage of students referred by DESI. See the background section in Appendix A
for a discussion of centers serviced by DESI.

Results


After examining the available audit documentation, we concluded that allegations 1, 2
and 5 described below were not valid as they relate to the Clearfield Job Corps Center.
However, in our audit of the allegation that DESI manipulated background checks of
applicants, we found the PRH does not provide clear guidance for conducting such
checks. Additionally, we did not find evidence to substantiate or not substantiate
allegations 3 and 4 described below; therefore, we determined those allegations to be
inconclusive.

   1. The complainant alleged that DESI had allowed students with criminal records
      into the Job Corps’ program by going court shopping (going to a court not in the
      applicant’s jurisdiction to obtain background information). The PRH requires
      contacts be made in every jurisdiction in which the applicant has lived for 3 years
      prior to applying to enter Job Corps, but it is unclear as to whether contacts must
      be made in every court in every jurisdiction. We found that for 25 of our 160
      sample case files, DESI did not contact all courts in the jurisdiction covering an
      applicant’s residence. We found that although DESI contacted the appropriate
      District Court based on the applicant’s place of residence, it did not contact the
      Justice Court for the applicant’s place of residence.

   2. The complainant alleged that DESI had allowed students into the Job Corps’
      program with Social Security Numbers which stated “not valid for employment” or
      “not valid for employment without INS authorization.” We found that 159 of the
      160 student case files contained a copy of the applicant’s social security card as


U.S. Department of Labor—Office of Inspector General                                       3
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.


        required by the PRH.1 Using visual inspection of copies of Social Security cards
        in student case files, we found no cards that stated “not valid for employment” or
        “not valid for employment without INS authorization.”

    3. The complainant alleged that DESI management officials had instructed
       admissions counselors to allow students whose parents did not meet the
       eligibility criteria (because their incomes exceeded the income threshold) to
       falsify where they lived and use their grandparents’ incomes when in fact they
       were living at home. We interviewed two former DESI admissions counselors
       regarding this allegation. They stated that DESI management officials had
       encouraged them to falsify applicant addresses. DESI management officials
       responsible for the Utah/Montana contract denied giving such instructions. Using
       non-statistical sampling, we interviewed 10 currently active Clearfield students
       out of 320 students who had been recruited and screened by DESI during the
       period July 1, 2004, through June 30, 2005. None of the 10 students recalled
       their admissions counselor encouraging or allowing them to falsify information
       about where they were living at the time they applied to Job Corps.

        Because the evidence obtained through our interviews provided conflicting
        information regarding the validity of the allegation, and there was no other
        evidence available to provide verification of the allegation, we could not conclude
        whether DESI personnel had encouraged or allowed students to falsify where
        they lived in order to meet the low income requirement for admission to Job
        Corps.


    4. The complainant alleged that DESI management officials had instructed
       admissions counselors to advise students to lie about their health conditions. As
       stated in the PRH, providing information related to student health needs is
       voluntary; therefore, the lack of health information in student case files is not a
       violation of Job Corps’ policy, nor an indicator that student health information is
       being withheld. Furthermore, information relating to health may be collected only
       after an applicant has been determined to be eligible for Job Corps, required
       information related to additional factors for student selection and enrollment has
       been obtained, and the applicant has been assigned to a Center. We
       interviewed the complainant and another former DESI admissions counselor
       regarding this allegation. The former counselors stated that DESI management
       officials had instructed them not to report student health conditions. DESI
       management officials responsible for the Utah/Montana contract denied giving
       such instructions. We also interviewed 10 Clearfield students who had been
       recruited and screened by DESI. None of the 10 recalled their admissions
       counselor advising them not to divulge, or to lie about, any health conditions they
       may have had.

1
  One case file did not contain a copy of the applicant’s Social Security card or other acceptable documentation of
the participants’ Social Security Number.
4                                                     U.S. Department of Labor—Office of Inspector General
                                                                               Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.




       Because the evidence we obtained through our interviews provided conflicting
       information regarding the validity of the allegation, and there was no other
       evidence available to provide verification of the allegation, we could not conclude
       whether DESI had informed students to lie about their health conditions.

   5. The complainant alleged that DESI management officials maintained a list of the
      last two digits of Social Security Numbers that are audited by the Department of
      Labor and ensured that these folders had correct information because DESI
      knew that these were the only folders that would be reviewed by Job Corps. The
      complainant further alleged that all the other folders that are not on the audit list
      may have more than 75 percent incorrect information so that DESI can win its
      contract which is to be renewed this year (2005). Based on our examination of
      student folders as part of our testing related to allegation numbers 1 – 4, we
      found that the folders contained information that met the technical requirements
      of the PRH. This allegation also refers to the sampling methodology used by Job
      Corps related to its documentation requirements for student case files.
      Documentation requirements for “sample” case files (all participants with Social
      Security Numbers ending with 03, 12, 17, 30, 93) are more stringent than
      documentation requirements for “non-sample” files. The Social Security
      Numbers for “sample” case files are identified in the PRH, and are not
      considered information that should be kept confidential from DESI or any other
      Job Corps’ contractor.

Recommendation


We recommend that Job Corps issue additional policy guidance to clarify the PRH
requirement for contacting courts to determine whether applicants have a history of
criminal behavior that needs to be considered when assessing applicants’ ability to
participate successfully in Job Corps.



Job Corps’ Response


In response to the draft report, the National Director of Job Corps stated that she
agreed with the report’s findings and recommendation. She stated that Job Corps will
review the documentation and process for conducting background checks in order to
issue new PRH policy that offers additional guidance to admissions counselors. The
updated policy will be in effect within 60 calendar days.




U.S. Department of Labor—Office of Inspector General                                       5
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.


OIG Conclusion


Based on the National Director of Job Corps’ response to the draft report, we consider
the recommendation to be resolved. The recommendation can be closed after we have
received and reviewed Job Corps’ revised PRH policy.




6                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.




U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report



Ms. Esther Johnson
National Director
Office of Job Corps
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

Based on allegations included in a hotline complaint, the Office of Inspector General
(OIG) audited information related to a contract between Job Corps and Dynamic
Educational Systems, Inc. (DESI). Under Job Corps contract number AE98301000 for
the period January 1, 2001, through December 31, 2005, DESI provided outreach,
admissions and career development services in the States of Utah and Montana (the
Utah/Montana contract). We focused our audit on students that DESI recruited for the
Clearfield Job Corps Center, Clearfield, Utah, during PY 2004. Clearfield, operated by
Management Training Corporation (MTC), is the largest of the five Job Corps centers in
Utah/Montana and received the largest percentage of applicants referred by DESI.

The following table presents each allegation we considered and our conclusion on
whether the allegation was valid.

                     ALLEGATION                                    AUDIT CONCLUSION
DESI allowed students with criminal records into the              Not valid
Job Corps’ program by going court shopping (going to
a court not in the applicant’s jurisdiction to obtain
background information).
DESI allowed students into the Job Corps’ program                 Not valid
with Social Security Numbers which stated “not valid
for employment” or “not valid for employment without
INS authorization.”
DESI management officials instructed admissions                   Inconclusive
counselors to allow students whose parents did not

U.S. Department of Labor—Office of Inspector General                                       7
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.


meet the eligibility criteria (because their incomes
exceeded the income threshold) to falsify where they
lived and use their grandparents’ income while in the
meantime they were living at home.

DESI management officials instructed admissions            Inconclusive
counselors to advise students to lie about their health
conditions.

DESI management officials maintained a list of the last    Not valid
two digits of Social Security Numbers which are
audited by the Department of Labor and ensured that
these folders had correct information because DESI
knew that these were the only folders that would be
reviewed by Job Corps. All the other folders that are
not on the audit list may have more than 75 percent
incorrect information so that DESI can win its contract
which is to be renewed this year (2005).

While we concluded that the allegation that DESI went “court shopping” was not valid,
we did find that the PRH does not provide adequate guidance regarding the
requirement that contacts be made in every jurisdiction in which applicants have lived in
the 3 years prior to applying to enter the Job Corps’ program. We recommend that Job
Corps issue additional policy guidance to clarify this requirement.

We conducted the audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our audit objectives, scope, methodology and
criteria are detailed in Appendix B.

Objective 1. Did DESI Allow Students with Criminal Records into the Job Corps’
Program by Going Court Shopping (Going to a Court Not in the Applicant’s
Jurisdiction to Obtain Background Information)?

Results -- The Allegation That DESI Allowed Students with Criminal Records into
the Job Corps’ Program by Going Court Shopping (Going to a Court Not in the
Applicant’s Jurisdiction to Obtain Background Information) Was Not Valid.

While we concluded that the allegation was not valid, we did find that for 25 cases in our
sample, DESI did not contact all courts in the jurisdiction covering an applicant’s
residence. In these 25 cases, DESI had contacted the appropriate District Courts in
Utah based on the applicants’ places of residence, but they had not contacted the
Justice Court for the applicants’ places of residence. Based on our projection of the
audit results, we are 95 percent confident that DESI did not check Justice Court records
for 40 to 68 of the 320 applicants referred to the Clearfield Job Corps Center in Program
Year 2004.


8                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.


Guidance provided in the PRH is unclear as to whether DESI should have contacted
both the District and Justice Courts. Chapter 1, Section R4.c of the PRH states that
admissions counselors shall:

       Conduct a background check to confirm that the applicant is not on
       probation, parole, or under a suspended sentence, or under the
       supervision of any agency as a result of court action or institutionalization,
       unless the court or appropriate agency certifies in writing that it will
       approve of the applicant’s release from its face-to-face supervision and
       that the applicant’s release does not violate applicable laws and
       regulations.

The PRH, Chapter 1, Exhibit 1-1, Part J states that for all applicants:

       ACs (Admissions Counselors) must obtain information regarding court
       interventions and institutionalization from both the applicant and the courts
       or appropriate agencies for every applicant. The AC should ask the
       applicant to write down dates and addresses where applicant has lived in
       the last 3 years. Applicants must be questioned about any residential
       history arrest records during that time. Using the ETA 655 courts/agency,
       contacts must be made in every jurisdiction in which the applicant has
       lived during the 3 years prior to application.

DESI referred 320 students to the Clearfield Center during PY 2004. To determine the
validity of this allegation, we reviewed a random sample of 160 student case files at the
Clearfield Job Corps.

For 99 of the 160 student case files reviewed, we noted no exceptions to Job Corps’
policy requirements for background checks.

For 36 of the student case files, the checklist completed by MTC staff at the Clearfield
Job Corps Center indicated that a background check had been completed. However,
our review of the file revealed that it did not contain the required documentation related
to the background check. Since the checklist completed by MTC staff indicated that the
background check information was in the file when DESI delivered the file to the center,
we concluded that this information was misplaced/misfiled/lost by MTC staff. We
contacted the Utah District Court system and obtained information regarding the 36
students. None of the 36 students had criminal convictions that would have precluded
them from enrolling in Job Corps.

For the other 25 student case files in our sample of 160 files, we found that DESI had
contacted the appropriate District Courts based on the students’ places of residence,
but they had not contacted the Justice Court in the students’ places of residence.

DESI officials stated it was the practice of the Utah/Montana contract to utilize as many
jurisdictions as possible in the process of admissions services for applicants. The use

U.S. Department of Labor—Office of Inspector General                                        9
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.


of District Courts provides for the degree of criminal activity that would require court
supervision, and District Courts prosecute offenses that would pose risks to the safety
of other Job Corps participants

The State of Utah has eight District Courts that have jurisdiction to try more serious
cases, including all civil cases, all criminal felonies such as homicides, assaults, sex
and drug offenses, forgery, arson, and robbery, and misdemeanors in certain
circumstances.

The State of Utah also has 147 Justice Courts that have been established by counties
and municipalities and have the authority to deal with class B and C misdemeanors. In
Utah, a misdemeanor is a minor offense, lower than a felony, which is punishable by a
county jail term of up to 1 year and/or a fine, but not prison.

The PRH, Chapter 1, Appendix 104 provides admissions counselors with strategies to
use when assessing an applicant’s ability to participate successfully in Job Corps. The
PRH states that applicants cannot be denied enrollment in Job Corps based on
involvement in the criminal justice system. The PRH does not list criminal offenses that
automatically determine that an applicant is unsuitable for enrollment in Job Corps, nor
is there a specific criminal offense or number of convictions that automatically
disqualifies an applicant from Job Corps. Rather, the PRH states that the applicant
criminal history review should include the following:

       The relevance of each conviction or behavior to the requirements of Job Corps
       The nature of the crime(s) committed
       The number of convictions
       The facts surrounding each offense
       The length of time between the conviction(s) and/or the completion of court-
       imposed sanctions, and the time of Job Corps application
       The applicant’s school and employment history before and after the conviction
       The applicant’s efforts at rehabilitation

Appendix 104 also states that admissions counselors must coordinate with the Job
Corps center prior to conditional assignment when reviewing applicant eligibility in
cases where court fines are involved. In addition, the admissions counselors should
forward cases in which applicants are responsible for significant court fines, such as
those over $500, to the Regional Office for review and approval prior to conditional
assignment.

We contacted officials in the Job Corps National Office to obtain a clarification of the
PRH requirement that contacts must be made in “every jurisdiction” in which the

10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.


applicant has lived during the 3 years prior to application. Job Corps officials stated
that:

       DESI would technically still be in compliance with the PRH if they
       contacted only the District Court. The policy requires contacts in every
       jurisdiction, but it does not specifically require contacts of “every court” in
       every jurisdiction. Furthermore, one could argue that contacting the Utah
       Justice Courts would be an inefficient use of resources, since
       misdemeanor offenses would not in themselves be disqualifying (although
       a long record of misdemeanors could indicate behavior issues that would
       lead to the rejection of an applicant).

Based on the information required to be considered by admissions counselors as noted
above, we believe that in order to fully consider an applicant’s history of criminal
behavior, an admissions counselor would need to consider the types of crimes that
could be adjudicated by Justice Courts in Utah.

Conclusion

The allegation that DESI allowed students with criminal records into the Job Corps’
program by going court shopping is not valid. However, the PRH does not provide
adequate guidance regarding the requirement that contacts be made in every
jurisdiction in which applicants have lived in the 3 years prior to applying to enter the
Job Corps’ program. As Job Corps officials stated, a long record of misdemeanors
would be an important factor for admissions counselors to consider when assessing
applicants’ ability to participate successfully in Job Corps. To obtain information on
misdemeanor offenses, DESI’s admissions counselors would need to contact the
Justice Courts in all jurisdictions where the applicant has lived for 3 years prior to
applying to the Job Corps’ program.

Recommendation

We recommend that Job Corps issue additional policy guidance to clarify the PRH
requirement for contacting courts to determine whether applicants have a history of
criminal behavior that needs to be considered when assessing applicants’ ability to
participate successfully in Job Corps.

Agency Response

In response to the draft report, the National Director of Job Corps stated that she
agreed with the report’s findings and recommendation. She stated that Job Corps will
review the documentation and process for conducting background checks in order to
issue new PRH policy that offers additional guidance to admissions counselors. The
updated policy will be in effect within 60 calendar days.




U.S. Department of Labor—Office of Inspector General                                        11
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.


OIG Conclusion

Based on the National Director of Job Corps’ response to the draft report, we consider
the recommendation to be resolved. The recommendation can be closed after we have
received and reviewed Job Corps’ revised PRH policy.


Objective 2. Did DESI Allow Students into the Job Corps’ Program with Social
Security Numbers Which State “Not Valid for Employment” or “Not Valid for
Employment Without INS Authorization?”

Results – The Allegation That DESI Allowed Students into the Job Corps’
Program with Social Security Numbers Which State “Not Valid for Employment”
or “Not Valid for Employment Without INS Authorization” Was Not Valid.

The PRH, Chapter 1, Exhibit 1-1, Page 1 of 15, details the documentation requirements
for the eligibility criterion for age:

        For sample participants (all participants with Social Security numbers
        ending with 03, 12, 17, 30, 93), a copy of each document used in the
        assessment/verification to demonstrate eligibility under this criterion as
        well as a valid Social Security card must be retained in the applicant’s file.

        For non-sample participants, a valid Social Security card is required from
        all applicants; a copy must be placed in the admissions file. If applicant
        has lost SS card, a copy of another official document which lists the SS
        number (e.g., drivers license, state ID, school record, tax record, W-2)
        must be placed in the admissions file.

To determine the validity of the allegation, we reviewed a randomly selected sample of
160 student case files at the Clearfield Job Corps Center. We found that 159 of the 160
student case files contained the required documentation.2 Using visual inspection of
copies of the Social Security cards in the student case files, we found no cards that
stated “not valid for employment” or “not valid for employment without INS authorization.




2
 One student case file did not contain a copy of the student’s Social Security card or any of the other forms of
acceptable documentation of the student’s Social Security Number.
12                                                   U.S. Department of Labor—Office of Inspector General
                                                                              Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.


Objective 3. Did DESI Management Officials Instruct Admissions Counselors to
Allow Students Whose Parents Did Not Meet the Eligibility Criteria (Because Their
Incomes Exceeded the Income Threshold) to Falsify Where They Lived and Use
the Grandparents’ Income While in the Meantime They Were Living at Home?

Results -- We Could Not Conclude Whether DESI Management Officials Instructed
Admissions Counselors to Allow Students Whose Parents Did Not Meet the
Eligibility Criteria (Because Their Incomes Exceeded the Income Threshold) to
Falsify Where They Lived and Use the Grandparents' Income While in the
Meantime They Were Living at Home.

The PRH, Chapter 1, Exhibit 1-1, Page 4 of 15, details the documentation requirements
for the eligibility criterion for low income:

       For sample participants, admissions counselors must review and verify all
       source document information used to demonstrate eligibility. To be
       eligible as low income under the Earned Income category, an individual or
       a member of a family living in a single residence that has received total
       family income which, in relation to family size, was not in the excess of the
       higher of:

          1. The poverty level determined in accordance with criteria
             established by the DHHS
          2. 70 percent of the lower living standard income level (LLSIL)

       Acceptable source documents include income verification statements
       from, or documented phone calls with employers; paycheck stubs, tax
       returns or W-2s (limited circumstances); Unemployment Insurance
       Quarterly Wage Records; documentation of excludable income, such as
       letters of receipt of Unemployment Insurance or Social Security benefits,
       or copies of checks.

       For Non-sample Participants, applicant self-certifies on ETA 652.

We interviewed the complainant and other former DESI employees, including one other
former admissions counselor, regarding this allegation. The former counselors stated
that DESI management officials had encouraged them to falsify applicant addresses.
DESI management officials responsible for the Utah/Montana contract denied giving
such instructions. In order to further test for indications that this allegation might be
valid, we non-statistically selected and interviewed 10 Clearfield students out of the 320
who had been recruited and screened by DESI. None of the 10 students recalled their
admissions counselor encouraging or allowing them to falsify data about where they
lived.



U.S. Department of Labor—Office of Inspector General                                      13
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.


Because there is no secondary documentation that can be used to test this allegation,
the only information available to the auditors related to this allegation are statements
provided by two former employees of DESI, DESI management officials, and current
Clearfield students. Therefore, we cannot conclude on the allegation as valid or not
valid.

Objective 4. Did DESI Management Officials Instruct Admission Counselors to
Advise Students to Lie About Their Health Conditions?

Results -- We Could Not Conclude Whether DESI Management Officials Instructed
Admissions Counselors to Advise Students to Lie About Their Health Conditions.

Chapter 1, Section R5.a.4 of the PRH states the following:

       Admissions counselors shall:

       Encourage all applicants to provide information relating to their health
       needs, pursuant to ETA Form 6-53 (Job Corps Health Questionnaire).
       The provision of this information is voluntary.

       Information relating to health may be collected only after an applicant has
       been determined to be eligible, required information has been obtained for
       factors a-e in Section 1.2, R4, and the applicant has been assigned to a
       center. Admissions counselors shall not conduct any assessment of
       health information nor use health information in making decisions on
       recommendations for enrollment.

As stated in the PRH, providing information related to student health needs is
voluntary; therefore, the lack of health information in student case files is not a
violation of Job Corps’ policy, nor an indicator that student health information is
being withheld.

We interviewed the complainant and another former DESI admissions counselor
regarding this allegation. The former counselors stated that DESI management officials
had instructed them to advise students to lie about their health conditions. DESI
management officials responsible for the Utah/Montana contract denied giving such
instructions. Using non-statistical sampling, we interviewed 10 Clearfield students who
had been recruited and screened by DESI. None of the 10 recalled their admissions
counselor advising them not to divulge, or to lie about, any health condition they may
have had.

Because there is no secondary documentation that can be used to test this
allegation, the only information available to the auditors related to this allegation
are statements provided by three former employees of DESI, DESI management
officials, and current Clearfield students. Therefore, we cannot conclude on the
allegation as valid or not valid.
14                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.


Objective 5. Did DESI Management Officials Maintain a List of the Last Two
Digits of Social Security Numbers Which Were Audited by The Department
Of Labor (Job Corps) And Ensure That These Folders Had Correct
Information Because DESI Knew That Only These Folders Would Be
Reviewed By Job Corps, While Folders Not On The Audit List Had More
Than 75 Percent Incorrect Information?

Results – The Allegation That DESI Management Officials Maintained a List
of the Last Two Digits of Social Security Numbers Which Were Audited by
the Department of Labor (Job Corps) and Ensured That These Folders Had
Correct Information Because DESI Knew That Only These Folders Would
Be Reviewed by Job Corps, While Folders Not on the Audit List Had More
Than 75 Percent Incorrect Information, Was Not Valid.

The results of our testing of student folders related to allegation numbers 1 – 4 show
that student folders contained information that met the technical requirements of the
PRH. The results of our audit of those allegations are shown in the table below:

                 Allegation                          Results of Review of Student Files
1. DESI allowed student with criminal           124 of 160 student folders tested
   records into the Job Corps’ program by       contained documentation related to
   going court shopping (going to a court       background checks that met the technical
   not in the applicant’s jurisdiction to       requirements of the PRH. For the 36
   obtain background information).              folders that did not contain documentation
                                                related to background checks, we
                                                determined that the information had been
                                                misplaced/misfiled/lost by MTC staff after
                                                DESI delivered the files to the Clearfield
                                                Job Corps Center.
2. DESI allowed students into the Job           159 of 160 student folders tested
   Corps’ program with Social Security          contained a copy of the student’s Social
   Numbers which stated “not valid for          Security card, as required by the PRH.
   employment” or “not valid for                None of those cards included “not valid or
   employment without INS authorization.”       employment” or “not valid for employment
                                                without INS authorization.”
3. DESI management officials instructed         Although we determined the allegation to
   admissions counselors to allow               be inconclusive, we found the PRH allows
   students whose parents did not meet          “non-sample” applicants to self-certify as
   the eligibility criteria (because their      to their income levels; therefore, no
   incomes exceeded the income                  documentation of income level is required.
   threshold) to falsify where they lived
   and use the grandparents’ income
   while in the meantime they were living
   at home.




U.S. Department of Labor—Office of Inspector General                                      15
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.


4. DESI management officials instructed        Although we determined the allegation to
   admissions counselors to advise             be inconclusive, we found the PRH states
   students to lie about their health          that providing information related to health
   conditions.                                 needs is voluntary; therefore, the lack of
                                               health information in student case files is
                                               not a violation of Job Corps’ policy.


Further, this allegation refers to the sampling methodology used by Job Corps
related to its documentation requirements for student case files. Documentation
requirements for “sample” case files (all participants with Social Security
Numbers ending with 03, 12, 17, 30, 93) are more stringent than documentation
requirements for “non-sample” files. The Social Security Numbers for “sample”
case files are identified in the PRH, and are not considered information that
should be kept confidential from DESI or any other Job Corps’ contractor.




Elliot P. Lewis
March 3, 2006




16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.




Appendices




U.S. Department of Labor—Office of Inspector General                                      17
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.




                                                                              APPENDIX A
BACKGROUND


Job Corps is a national program carried out in partnership with states and communities
to assist eligible youth who need and can benefit from an intensive program, operated in
a group setting in residential and nonresidential centers, to become more responsible,
employable and productive citizens.

Dynamic Educational Systems, Inc. (DESI) commenced operations as a training division
of Dynamic Science, Inc., in 1985. DESI became a wholly owned subsidiary of
Exodyne, Inc., in October 1990. DESI’s primary customer has been the U. S.
Department of Labor, Office of Job Corps.

DESI provides career training and job placement services to Job Corps through its
Outreach, Admissions and Career Transition Services Division. Through its Job Corps
Centers Management Division, DESI also operates six Job Corps centers.

On November 29, 2000, Job Corps awarded Contract No. AE98301000 to DESI for
Outreach, Admissions, Placement and Career Development Services in the States of
Montana and Utah (the Utah/Montana contract). The base contract covered the 2-year
period from January 1, 2001, through December 31, 2002. The contract included three
additional option years through December 31, 2005.

Under the terms of the Utah/Montana contract, DESI was primarily responsible for
recruiting and enrolling eligible youth for the following Job Corps centers:

Center        Location              Center Capacity

Anaconda          Anaconda, Montana              236
Clearfield        Clearfield, Utah             1,320
Kicking Horse     Ronan, Montana                 224
Trapper Creek     Darby, Montana                 224
Weber Basin       Ogden, Utah                    224

The OIG received a hotline complaint containing five allegations concerning DESI’s
performance under the Utah/Montana contract. The hotline complaint alleged that DESI
had:

   1.     Allowed students with criminal records into the Job Corps’ program by going
          court shopping (going to a court not in the applicant’s jurisdiction to obtain
          background information).




U.S. Department of Labor—Office of Inspector General                                      19
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.


     2.   Allowed students into the Job Corps’ program with Social Security Numbers
          which stated ”not valid for employment” or “not valid for employment without
          INS authorization.”

     3.   Allowed students whose parents did not meet the eligibility criteria (because
          their incomes exceeded the income threshold) to falsify where they lived and
          use the grandparents’ income while in the meantime they were living at home.

     4.   Advised students to lie about their health conditions.

     5.   Maintained a list of the last two digits of Social Security Numbers which are
          audited by the Department of Labor and ensured that these folders had
          correct information because DESI knew that these were the only folders that
          would be audited. Folders not on the audit list may have more than 75
          percent incorrect information so that DESI can win its contract which is to be
          renewed this year (2005).




20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.


                                                                              APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA


Objectives
Our audit objectives were to determine the validity of the five allegations contained in
the hotline complaint regarding DESI’s performance under its Utah/Montana contract.
Our specific objectives were as follows:

   1. Did DESI allow students with criminal records into the Job Corps’ program by
      going court shopping (going to a court not in the applicant’s jurisdiction to obtain
      background information)?

   2. Did DESI allow students into the Job Corps’ program with Social Security
      Numbers which state “not valid for employment” or “not valid for employment
      without INS authorization?”

   3. Did DESI management officials instruct admissions counselors to allow students
      whose parents did not meet the eligibility criteria (because their incomes
      exceeded the income threshold) to falsify where they lived and use the
      grandparents’ income while in the meantime they were living at home?

   4. Did DESI management officials instruct admission counselors to advise students
      to lie about their health conditions?

   5. Did DESI management officials maintain a list of the last two digits of Social
      Security Numbers which were audited by the Department of Labor (Job Corps)
      and ensure that these folders had correct information because DESI knew that
      only these folders would be reviewed by Job Corps, while folders not on the audit
      list had more than 75 percent incorrect information?

Scope
Our audit period was Program Year 2004 (July 1, 2004 – June 30, 2005). We focused
our audit on students recruited by DESI into the Clearfield Job Corps Center, Clearfield,
Utah, for the following reasons: (1) of the five centers included in the Utah/Montana
contract, Clearfield received the largest percentage of applicants recruited by DESI
during our audit period, and (2) Clearfield was the largest center supplied by DESI in the
Utah/Montana contract. Because of our decision to audit only applicants referred to the
Clearfield Job Corps Center, audit results included in this report apply only to those
applicants and conclusions on the validity of the allegations apply only to the Clearfield
Job Corps Center.

DESI referred 320 participants to the Clearfield Center during Program Year 2004. We
reviewed a statistical sample of 160 case files of participants referred by DESI to
Clearfield. Fieldwork was conducted at Job Corps’ headquarters in Washington, D.C.,


U.S. Department of Labor—Office of Inspector General                                       21
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.


the Dallas Regional Job Corps Office, and the Clearfield Job Corps Center in Clearfield,
Utah.

As noted in the body of this report, 36 of the 160 sample participant files did not contain
background check information. We did not consider those files as errors because the
file contained evidence that the files did contain background check information when
they were transmitted to the Clearfield Center operator. We used the assumption that
since the center operator signed a document that the background information was in the
file when it came to the center, the information was misplaced or lost after it got to the
center; therefore, it could not be assumed the background check was not correct.
Therefore, we used the remaining 124 case files to statistically test the allegation that
DESI used court shopping when performing background checks on Job Corps center
applicants.

We assessed policies and procedures (internal controls) used by DESI to ensure it
would perform the outreach and admission function as required by the Job Corps PRH
and its own internal requirements. Because of the nature of the allegations that
management circumvented controls and compliance with Job Corps policy, we did not
test the effectiveness of controls but rather performed substantive test of student files.
Our audit tests were limited to matters discussed in the allegation and did not include an
assessment of all PRH and DESI internal policies.

Our audit was performed in accordance with Generally Accepted Government Auditing
Standards for performance audits.

Methodology

To accomplish our audit objectives, we reviewed applicable criteria, including Chapter 1
of Job Corps’ Policy and Requirements Handbook (PRH) and DESI’s internal policies
and procedures. We reviewed a randomly selected sample of student case files to
determine if DESI had complied with policies regarding background checks, and Social
Security cards. Because we used systematic random sampling to test student case
files, we projected the results to the population of students recruited and placed at
Clearfield by DESI. For the 36 files that did not have supporting documentation of a
background check, we contacted the Utah District Courts to obtain information
regarding the applicants’ possible involvement with the criminal justice system. We did
not use computer-processed data in identifying the universe of student case files used
in our sampling plan. Rather, we obtained all hard copy case file folders from MTC, the
Clearfield Center operator, for students referred by DESI to the Clearfield Job Corps
Center during the period July 1, 2004, through June 30, 2005, and compared the total
file folders to the 320 cases recorded in the Outreach and Admission Student Input
System provided by the Job Corps Data Center for that period.

We interviewed DESI staff, including two former admissions counselors and DESI
management officials. We also interviewed staff from the center operator, Management
Training Corporation (MTC). We conducted interviews with officials at Job Corps’

22                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.


National headquarters and the Dallas Regional Office. In addition, we interviewed 10
non-statistically selected current Job Corps students out of the 320 who had been
recruited for Clearfield by DESI during the period July 1, 2004, through June 30, 2005.

Criteria


We used the following criteria to perform this audit:

Job Corps Policy and Requirements Handbook, Chapter 1 “Outreach/Admissions”,
November 7, 2005
Contract No. AE98301000 between Job Corps and DESI, January 1, 2001
Workforce Investment Act, Subtitle C - Job Corps, 1998




U.S. Department of Labor—Office of Inspector General                                      23
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc.


                                                                              APPENDIX C
ACRONYMS AND ABBREVIATIONS



AC            Admissions Counselor

DESI          Dynamic Educational Systems, Inc.

ETA           Employment and Training Administration

INS           Immigration and Naturalization Service

MTC           Management Training Corporation

OIG           Office of Inspector General

PRH           Policy and Requirements Handbook

PY            Program Year




U.S. Department of Labor—Office of Inspector General                                      25
Report Number: 21-07-001-01-370
Allegations Concerning Dynamic Educational Systems, Inc.




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 21-07-001-01-370
                                     Allegations Concerning Dynamic Educational Systems, Inc


                                                                             APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                     27
Report Number: 21-07-001-01-370
